No. ________
IN THE

Supreme Court of the United States
________________
CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL LEGAL DEFENSE FUND,
DEFENDERS OF WILDLIFE, AND SOUTHWEST ENVIRONMENTAL CENTER,
Petitioners,
v.
THE U.S. DEPARTMENT OF HOMELAND SECURITY1,

Respondents.
APPLICATION TO THE HON. JOHN G. ROBERTS
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF COLUMBIA

Pursuant to Rule 13(5) of the Rules of this Court, Petitioners Center for
Biological Diversity, Animal Legal Defense Fund, Defenders of Wildlife, and
Southwest Environmental Center (collectively, “Petitioners”) move for an extension
of time of 60 days, to and including February 1, 2020, within which to file a petition
for a writ of certiorari.
1.

The two related judgments from which review is sought are Center for

Biological Diversity, et al. v. Kevin McAleenan, Acting Secretary of the Department
of Homeland Security, et al., Case No. 18-cv-0655-KBJ (D.D.C. Sep. 4, 2019) (“CBD

In light of Kevin McAleenan’s recent departure from the position of Acting Secretary
of Homeland Security, Petitioners have removed the Secretary of Homeland Security as
lead respondent and shall substitute in the newly appointed Secretary when confirmed
pursuant to Federal Rule of Civil Procedure 25(d).
1

v. McAleenan I”) and Center for Biological Diversity, et al. v. Kevin McAleenan,
Acting Secretary of the Department of Homeland Security, et al., Case No. 19-cv2085-KBJ (D.D.C. Sep. 13, 2019) (“CBD v. McAleenan II”). The CBD v. McAleenan I
judgment arises from the district court’s September 4, 2019 Memorandum Opinion
denying Plaintiffs’ motion for summary judgment, 2019 U.S. Dist. LEXIS 150576
(D.D.C. 2019), Dkt. No. 37 (Sep. 4, 2019), and accompanying Orders, Dkt. No. 38
(Sep. 4, 2019) and Dkt. No. 41 (Sep. 11, 2019) (attached as Exhibit 1). Separately, in
the related case, CBD v. McAleenan II, the judgment arises from the district court’s
September 13, 2019 Order dismissing Plaintiffs’ claims for the same reasons set
forth in CBD v. McAleenan I, Dkt. No.21 (Sep. 13, 2019) (attached as Exhibit 2). By
statute, Plaintiffs’ only right to appeal is to petition for a writ of certiorari in this
Court on constitutional grounds. See 8 U.S.C. § 1103 note, § 102(c)(2)(C).
The date within which a petition for writ of certiorari would be due, if not
extended, is December 3, 2019, calculated from the date of judgment in CBD v.
McAleenan I, pursuant to Rule 13.1 of the Rules of this Court. Petitioners are filing
this Application at least ten days before that date. See S. Ct. R. 13.5. The
jurisdiction of this Court is based on section 102(c)(2)(C) of the Illegal Immigration
Reform and Immigrant Responsibility Act (“IIRIRA”), codified at 8 U.S.C. § 1103
note. Specifically, IIRIRA § 102(c)(2)(C) provides for this Court’s direct, certiorari
review of the district court’s rulings:
(C) Ability to seek appellate review.—An interlocutory or final
judgment, decree, or order of the district court may be reviewed only
upon petition for a writ of certiorari to the Supreme Court of the
United States.
2

2.

This case presents substantial questions of law regarding the

separation of powers which merit this Court’s attention: (1) whether IIRIRA
§ 102(c), which grants the Secretary of Homeland Security the unfettered discretion
to waive “all applicable laws” with regard to the construction of barriers along the
U.S. border, is an unconstitutional delegation of power in violation of Article I,
Section I of the Constitution by transferring quintessentially legislative functions—
including the authority to unilaterally choose which national public interests should
be subjugated to border wall construction—to the Executive Branch; and
(2) whether IIRIRA § 102(c) violates the Presentment Clause, Article I, Section 7 of
the Constitution, by giving the Executive Branch unfettered discretion to, in effect,
selectively repeal federal laws otherwise applicable to border wall construction
without adhering to bicameralism procedures.
3.

The related cases arise from the Trump Administration’s pursuit of a

border wall along the U.S.-Mexico border.
a.

In 1996, Congress passed IIRIRA § 102, which allowed the Attorney

General to waive only two environmental laws when the Attorney General
determined such waiver “was necessary to ensure expeditious construction” of a
specific section of border barriers. Pub. L. No. 104-208, Div. C., Title I, § 102(c), 110
Stat. 3009, 3009-554 (1996). In 2005, Congress amended IIRIRA § 102 to massively
expand the Executive Branch’s waiver authority to include “all legal
requirements”—including all federal, state, local, and tribal laws —that the
Secretary of Homeland Security, for any reason and without explanation, deemed
3

“necessary to ensure expeditious construction of the barriers and roads under this
section.” REAL ID Act, Pub. L. No. 109-13, Div. B, Title I, § 102, 119 Stat. 231, 302,
306 (May 11, 2005).
b.

On January 22, 2018, October 10, 2018, and October 11, 2018, the

Secretary of Homeland Security published three waiver determinations in the
Federal Register waiving 28 federal statutes—along with “all other federal, state, or
other legal requirements deriving therefrom”—otherwise applicable to nearly 50
miles of border wall construction in New Mexico and Texas, which Petitioners
challenged in CBD v. McAleenan I. See 83 Fed. Reg. 3,012 (Jan. 22, 2018) (Santa
Teresa, NM); 83 Fed. Reg. 50,949 (Oct. 10, 2018) (Cameron County, Texas); 83 Fed.
Reg. 51,472 (Oct. 11, 2018) (Hidalgo County, TX). Separately, on May 15, 2019, the
Secretary of Homeland Security published three similarly worded waiver
determinations in the Federal Register, waiving 43 federal laws otherwise
applicable to nearly 80 miles of border wall construction in Arizona and California,
which Petitioners challenged separately in CBD v. McAleenan II. See 84 Fed. Reg.
21,798 (May 15, 2019) (Cochise and Pima Counties, AZ); 84 Fed. Reg. 21,800 (May
15, 2019) (Imperial County, CA); 84 Fed. Reg. 21,801 (May 15, 2019) (Tecate and
Calexico, CA).
With respect to CBD v. McAleenan I, Petitioners sued the Secretary of
Homeland Security and the Department of Homeland Security in the U.S. District
Court for the District of Columbia, seeking to set aside the three New Mexico and
Texas waivers and require the Secretary to comply with all applicable laws in
4

constructing border wall.2 After briefing and argument, the district court granted
summary judgment for the government, rejecting Plaintiffs’ claims that the
expansive waiver authority exercised by the Secretary was unconstitutional. See
CBD v. McAleenan I, 2019 U.S. Dist. LEXIS at *7 (attached in Exhibit 1). 3 With
respect to CBD v. McAleenan II, Plaintiffs Center for Biological Diversity, Animal
Legal Defense Fund, and Defenders of Wildlife sued the Secretary and the
Department of Homeland Security, seeking to set aside the three Arizona and
California waivers and require the Secretary to comply with all applicable laws in
constructing border wall. See Case No. 19-cv-2085-KBJ (D.D.C. Sep. 13, 2019). The
district court dismissed that case for the reasons set forth in the court’s
Memorandum Opinion for Case No. 18-cv-0655-KBJ, with the understanding that
the parties’ appeal rights remain preserved (attached in Exhibit 2).
4.

This Court’s review is warranted in light of the important separation of

powers issues at stake and IIRIRA § 102(c)’s extraordinary withdrawal of appellate
review by the court of appeals. As a practical matter, in light of Congress’s decision
to displace the normal course of appellate review, only this Court can engage in
appellate review of the important constitutional questions raised by Petitioners.

2

Plaintiffs filed two cases that were consolidated under Case No. 18-cv-0655-KBJ.

In a separate Order, the Court made clear that it was also dismissing the claims in
the consolidated case on the same basis. See Order Dismissing Claims in Case No. 18-cv2396-KBJ (Sept. 11, 2019) (attached as Exhibit 1). Petitioners are seeking an extension of
time to petition for this Court’s review with respect to both of the consolidated cases.
3

5

Moreover, questions over the constitutionality of IIRIRA § 102(c) are likely to
recur as the Trump Administration continues to issue new waivers for border wall
construction. Since CBD v. McAleenan I commenced in March 2018, the
Administration has issued an additional eleven waivers, totaling fifteen waivers to
date issued by this Administration.4 Further, the Administration’s exercise of
authority under 10 U.S.C. § 2808—to redirect military funds from the Department
of Defense for border construction pursuant to the President’s declaration of an
emergency under the National Emergencies Act, 50 U.S.C. § 1601 et seq.—has
shifted $6.7 billion to border wall construction. The redirection of military funds
and the Administration’s continued pursuit of border wall funding through
Congressional appropriations ensure the issuance of future waivers and expected
legal challenges. Accordingly, the important constitutional issues raised by
Congress’s delegation of unfettered discretion to an Executive Branch official to
waive all federal, state, local, and tribal laws, along with the ongoing practical
ramifications for border residents and other interests that are supposed to be
protected by those laws, warrant review by this Court.

See 82 Fed. Reg. 35,984 (Aug. 2, 2017) (San Diego, CA); 82 Fed. Reg. 42,829 (Sept.
12, 2017) (Calexico, CA); 83 Fed. Reg. 3,012 (Jan. 22, 2018) (Santa Teresa, NM); 83 Fed.
Reg. 50,949 (Oct. 10, 2018) (Cameron County, TX); 83 Fed. Reg. 51,472 (Oct. 11, 2018)
(Hidalgo County, TX); 84 Fed. Reg. 2,897 (Feb. 8, 2019) (San Diego, CA); 84 Fed. Reg.
17,184 (Apr. 24, 2019) (San Luis, AZ), 84 Fed. Reg. 17,185 (Apr. 24, 2019) (Luna and Doña
Ana Counties, NM); 84 Fed. Reg. 17,187 (Apr. 24, 2019) (Yuma County, AZ); 84 Fed. Reg.
21,798 (May 15, 2019) (Cochise and Pima Counties, AZ); 84 Fed. Reg. 21,800 (May 15, 2019)
(Imperial County, CA); 84 Fed. Reg. 21,801 (May 15, 2019) (Tecate and Calexico, CA); 84
Fed. Reg. 31,328 (July 1, 2019) (Starr County, TX); 84 Fed. Reg. 45,787 (Aug. 30, 2019)
(Hidalgo and Starr Counties, TX); 84 Fed. Reg. 52,118 (Oct. 1, 2019) (Cameron and Hidalgo
Counties, TX).
4

6

5.

The extension requested is justified in light of the Court’s pending

consideration of the petition for rehearing of Gundy v. U.S., 588 U.S. ___ (2019).
The non-delegation doctrine issues considered in Gundy are highly germane to this
case, and hence the Court’s decision as to whether to grant rehearing in Gundy
would have a significant bearing on how Petitioners frame their petition for
certiorari here. Extending the deadline for certiorari here will therefore afford
Petitioners additional time to take into consideration any pertinent developments in
Gundy.
6.

The extension requested is further justified by counsel’s press of

business on other pending litigation matters. Among other matters, the
undersigned are responsible for briefing related to Natural Resources Defense
Council et al. v. U.S. Dep’t of the Interior, Case No. 18-cv-4596-VEC (S.D.N.Y.)
(summary judgment brief due December 2, 2019); Center for Biological Diversity, et
al. v. Tennessee Valley Authority, Case No. 3:18-cv-1446-LCB (N.D. Al.) (resolution
of administrative record issues due November 8, 2019; summary judgment brief due
December 13, 2019); Environmental Defense Fund, et al. v. Elaine Chao, et al., Case
No. 1:19-cv-2907-KBJ (D.D.C.) (response to opposition due Nov. 14, 2019; further
briefing anticipated in December 2019); and Application of Duke Energy Carolinas,
LLC to Adjust Retail Rates and Charges Applicable to Electric Utility Service in
North Carolina, Docket No. E-7, Sub 1214 (N.C. Utilities Commission) (discovery
and briefing from November through December 2019).

7

For the foregoing reasons, Petitioners hereby respectfully request that an
extension of time be granted, to and including February 1, 2020, within which
Petitioners may file a petition for a writ of certiorari.
Respectfully submitted,
/s/ Anchun Jean Su
Anchun Jean Su
Counsel of Record
Eric Glitzenstein
Center for Biological Diversity
1411 K Street N.W., Suite 1300
Washington, D.C. 20005
(202) 849-8399
jsu@biologicaldiversity.org
eglitzenstein@biologicaldiversity.org

October 21, 2019

CORPORATE DISCLOSURE STATEMENT
In accordance with Rule 29.6 of the Rules of this Court, Petitioners Center for
Biological Diversity, Animal Legal Defense Fund, Defenders of Wildlife, and
Southwest

Environmental

Center,

state

that

they

are

not

publicly-held

corporations, do not issue stock, and do not have any parent corporations.

8

